r

XI. INDEX TO APPENDICES
APPENDIX A Decision of 2nd Court of Appeal
APPENDIX B Decision of Superior Court of CA
APPENDIX C Decision of the Supreme Court of CA

i

18
PETITION FOR WRIT OF CERTIORARI

Bin Yang vs. The Board of Registered Nursing

COURT OF APPEAL - SECOND DIET,

FILED
Oct 27, 2020
DANIEL P. POTTER, Clerk

.H Q7ano

Deputy Clerk

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion
has not been certified for publication or ordered published for purposes of rule 8.1115._____________

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION ONE
BIN YANG,

B298991

Plaintiff and Appellant,

(Los Angeles County
Super. Ct. No. BS174436)

v.

BOARD OF REGISTERED
NURSING,
Defendant and Respondent.

APPEAL from a judgment of the Superior Court of
Los Angeles County, James C. Chalfant, Judge. Affirmed.
Bin Yang, in pro per, for Plaintiff and Appellant.
Xavier Becerra, Attorney General, Carl W. Sonne,
Assistant Attorney General, Marc D. Greenbaum and
Vinodhini Ramagopal, Deputy Attorneys General for Defendant
and Respondent.

ii

In 1995, Bin Yang obtained a license to practice as a
registered nurse from respondent Board of Registered Nursing
(Board). Yang later allowed her license to lapse. In 2005, Yang
suffered a criminal conviction for assaulting a flight attendant.
In 2008, Yang was arrested in Wisconsin for unlawful entry into
a building or construction site; the charge was subsequently
dismissed.
Yang later sought to renew her nursing license, prompting
the Board to issue an order requiring her to submit to a mental
health examination. The Board issued the order because it had
concluded that Yang’s 2005 conviction and 2008 arrest indicate
that her ability to practice as a registered nurse safely may
impaired by a mental illness. Yang refused to submit to the
mental health examination because, inter aha, she wanted the
examiner to be from a university.
The Board responded by initiating administrative
proceedings against Yang. At the conclusion of those
proceedings, the Board revoked Yang’s nursing license. Yang
thereafter filed a petition for writ of mandate to set aside the
Board’s decision. The trial court ultimately entered a judgment
denying Yang’s petition.
On appeal, Yang, who is self-represented, claims the trial
court: (1) erred by failing to consider evidence that she did not
present during the administrative proceedings; (2) was biased
against her; and (3) otherwise erroneously denied her writ
petition. The first two contentions fail because Yang does not
show the trial court manifestly abused its discretion in excluding
the new evidence or that the court exhibited bias against her. We
reject the last claim of error; Yang may not challenge the validity
of the Board’s examination order without first complying with the

2
■2.0

order. Further, to the extent Yang intended to level any other
claims of error, she waived them by failing to provide any
discernible relevant legal argument in support of those claims.
We thus affirm the trial court’s judgment.
FACTUAL AND PROCEDURAL BACKGROUND
We summarize only those facts that are relevant to this
appeal.1
In July 1989, Yang earned a Bachelor/Doctor of Medicine
degree from Fudan University in China. Yang later moved to the
United States, and on August 8, 1995, the Board issued her a
license to practice as a registered nurse.
On March 30, 2005, Yang was charged in Texas with
assaulting a flight attendant while on a Southwest Airlines
flight. On November 16, 2005, Yang pleaded guilty to one count
of assault within the special aircraft jurisdiction of the United
States. The federal court sentenced Yang to five years of
probation and required her to attend anger management classes.
On February 18, 2008, Yang visited a state office in
Wisconsin for the Department of Regulation and Licensing,
seeking to discuss her medical license application with a specific
state employee. After Yang entered a secured portion of the
building, a state police officer was called to the scene. “Yang was
agitated and uncooperative with [the officer], refusing to provide

1 Our procedural and factual background is largely taken
from undisputed portions of the trial court’s final ruling.
(See Baxter v. State Teachers' Retirement System (2017)
18 Cal.App.5th 340, 349, fn. 2 [utilizing the summary of facts
provided in the trial court’s ruling].)

3

her identification or answer questions.” Although Yang initially
resisted arrest, the officer ultimately succeeded in handcuffing
Yang.2 Yang admitted to the officer that she had entered the
secured part of the building, was on federal probation, and did
not have permission to travel to Wisconsin. The officer issued
Yang a citation and released her; she was not prosecuted, and her
misdemeanor case was dismissed on March 27, 2008.
After several years of inactivity, Yang requested that the
Board renew her nursing license. In the course of processing
Yang’s request, the Board discovered Yang’s 2005 conviction and
her 2008 arrest.
On March 10, 2017, the Board issued to Yang an order
requiring her to submit to a mental examination pursuant to
Business and Professions Code3 section 820 (examination order).
The Board issued the examination order because it found that
Yang’s ability to practice safely as a registered nurse could be
impaired due to mental illness. The Board based this finding on
Yang’s 2005 conviction for assault and her 2008 arrest. The
order stated the examination would be conducted by a physician
specializing in psychiatry or a psychologist selected by the Board
and would be conducted within 30 days of service of the order.
The examination order admonished Yang that failure to comply
therewith would constitute grounds for disciplinary action
against her nursing license, pursuant to section 821.

2 The trial court’s final ruling on Yang’s writ petition notes
that Yang conceded the officer arrested her for unlawful entry
into a building or construction site.
3 Undesignated statutory citations are to the Business and
Professions Code.

4
It,

On March 1, 2018, the Board filed a first amended
accusation against Yang for failure to comply with the order.
On March 13, 2018, an administrative law judge (ALJ) held
a hearing on the matter. Yang testified at the hearing that she
“was willing to be evaluated by an examiner who worked for a
university,” but the Board disciplinary officer assigned to her
case “did not want a university doctor to examine Yang because
Yang ‘[knew] all the doctors.' ” Conversely, the disciplinary
officer testified that although the Board does not bar doctors from
universities from conducting its mental health examinations, the
disciplinary officer had “no way of knowing if a . . . doctor
[approved to undertake such examinations] works for a
university.” The disciplinary officer also claimed that because a
doctor “would state where he or she works as part of the vetting
process[J . . . the doctor’s information is ‘highly protected by
HIPPA [sic]. >»
On April 2, 2018, the ALJ issued a proposed decision that
recommended that the Board: (1) revoke Yang's license for
failure to comply with the examination order, and (2) require
Yang to pay the Board’s costs of investigation and prosecution in
the amount of $4,752.50 if' and when her license is reinstated.
The ALJ reasoned Yang lacked “standing to challenge the
examiner selected or the examination process” because she
refused to comply with the order. The ALJ also found “[t]he
Board demonstrated the minimum threshold for the issuance of a
section 820 ordei^’ because it “had legitimate concern over Yang’s
ability to safely practice nursing due to her conviction in 2005
and her arrest in 2008.” The ALJ concluded that “[a]s Yang
failed to dispel the Board’s concerns about her ability to safely
practice, the interests of public protection warrant revocation of

5

her license.” On June 5, 2018, the Board issued its decision and
order adopting the ALJ’s proposed decision, effective
July 5, 2018.
On May 12, 2018 and June 8, 2018, Yang sent e-mails to
the Board wherein Yang asserted, inter alia, that “she already
had been evaluated by two California experts, [including] one at
UCLA, and both the California Medical Board and Texas federal
court accepted his report”; and that Yang suffered an injury from
“a serious auto accident in 1997” that deprived her of the
strength necessary to “punch that airline attendant’s stomach
and make her fall. . .
Yang claimed that she pleaded guilty in
2005 simply “because she had no witness and her attorney
advised her to do so.” The Board treated Yang’s e-mails as a
request for reconsideration of its decision, and the Board denied
that request on June 29, 2018.
On July 30, 2018, Yang, who was self-represented, filed a
petition for writ of mandate, seeking a ruling directing the Board
to vacate its order revoking her nursing license. Yang argued
that “the Board did not properly carry out section 820 and the
decision to revoke her nursing license was thereby an abuse of
discretion.”
On January 10, 2019, Yang filed a motion seeking (among
other things) leave to augment the record to include a report
describing a CT scan Yang had in 1997 (1997 CT scan report) and
a psychological evaluation from UCLA (UCLA psychological
evaluation).
On March 21, 2019, the trial court denied Yang’s request to
augment the record. The court found that Yang failed to provide
“a basic evidentiary foundation of what [each] document is and
why it is relevant to Yang’s administrative proceeding”; “there is

6

4

t

;•

no evidence logically connecting the CT scan to [Yang’s] lack of
physical strength to punch the airline attendant”; “Yang has
produced no evidence supporting her assertion that, if she had
been reasonably diligent since November 1997 [(i.e., when the
scan was conducted)], she could not have made this connection
earlier and produced [the 1997 CT scan report) at the 2018
administrative hearing”; and “Yang provide[d] no evidence or
argument to support” augmenting the record to include the
UCLA psychological evaluation.
On July 2, 2019, the trial court issued a ruling denying
Yang1 s petition for writ of mandate. In pertinent part, the court
reasoned that “[Yang’s] arguments about the merits of the
incidents forming the basis for the [examination o]rder are
irrelevant” because “[c]ase law establishes that a licensee has no
due process right to challenge the reasons for a section 820 order
before submitting to the examination.” The trial court also
rejected Yang’s argument that “the Board should have scheduled
a university doctor to perform the mental examination” because
“Section 820 permits the board to choose the [examining]
professional from its approved list” and “there is no reason to
believe that a university professional would have any different
bias than a private practitioner.” In addition, the court ordered
the parties to meet and confer and submit a proposed judgment
along with any unresolved objections for the court’s review.
On the date on which the trial court issued its ruling, Yang
filed a premature notice of appeal of the court’s decision.4
4 We exercise our discretion under California Rules of
Court, rule 8.104(d)(2) to consider the notice of appeal as if it
were timely filed immediately after the September 17, 2019

7

On July 4, 2019, Yang filed an ex parte application for
reconsideration of the trial court’s ruling on her petition. On
July 5, 2019, the trial court denied Yang’s ex parte application
because it lacked proper notice, there was no showing of an
emergency, and the application was without merit.
On July 11, 2019, Yang filed a motion for reconsideration of
the denial of her petition.
On September 17, 2019, the trial court denied Yang’s
motion for reconsideration. It found Yang failed to comply with
California Rules of Court, rule 3.1112(a) by, inter alia, not
including a notice of hearing with the motion; omitting the
affidavit required by Code of Civil Procedure section 1008,
subdivision (b); and failing “to provide any new facts,
circumstances, or law in support of her motion for
reconsideration. . . .”
Also on September 17, 2019, the trial court entered a
judgment denying Yang’s petition for writ of mandamus. The
judgment incorporated by reference the court’s July 2, 2019
ruling denying the petition, and stated that the court had
rendered its decision upon “having reviewed the administrative

judgment. (See Cal. Rules of Court, rule 8.104(d)(2) [“The
reviewing court may treat a notice of appeal filed after the
superior court has announced its intended ruling, but before it
has rendered judgment, as filed immediately after entry of
judgment.”]; cf. Castillo v. Glenair, Inc. (2018) 23 Cal.App.5th
262, 275 [“Because the [plaintiffs] filed their notice of appeal
before the trial court entered judgment on its order granting
summary judgment, the notice of appeal was premature.
Nonetheless, we have jurisdiction to consider the appeal because
the trial court later filed a final judgment as to the [plaintiff's].”].)

8

record, considered all of the arguments of counsel, . . . and . . .
having exercised [the court’s] independent judgment. . . .”
DISCUSSION
We observe that much of Yang’s briefing is disjointed,
devoid of record citations, and vague. We nonetheless discern the
following claims of error: (1) The trial court excluded certain
evidence Yang did not present during the administrative
proceedings; (2) the court was biased against her; and (3) the
court erred in denying her petition for writ of mandate.
For the reasons discussed below, we reject these
arguments, and conclude the remainder of Yang’s challenges to
the trial court’s judgment are meritless or have been waived.
Consequently, Yang fails to overcome the presumption of
correctness accorded to the trial court’s judgment. (See
Shenouda v. Veterinary Medical Bd. (2018) 27 Cal.App.5th 500,
512—514 [noting that “a judgment denying a petition for writ of
administrative mandate” is “presumed correct” and “the
appellant bears the burden to affirmatively demonstrate error”
and “show that the error was prejudicial”]; see also Scholes v.
Lambirth Trucking Co. (2017) 10 Cal.App.5th 590, 595 [“On
appeal, a party challenging an order has the burden to show error
by providing an adequate record and making coherent legal
arguments, supported by authority, or the claims will be deemed
forfeited. [Citations.] The rules of appellate procedure apply to
[appellant] even though he is representing himself on appeal.
[Citation.] A party may choose to act as his or her own attorney.
We treat such a party like any other party, and he or she ‘ “is
entitled to the same, but no greater consideration than other
litigants and attorneys. [Citation.]”’ [Citation.]”].)

9

^7

A.

The Trial Court Did Not Err in Excluding Evidence
That Yang Had Failed to Introduce During the
Administrative Proceedings
«<

The general rule is that a hearing on a writ of
administrative mandamus is conducted solely on the record of the
proceeding before the administrative agency. [Citation.]’
[Citation.] Augmentation of the administrative record is
permitted only within the strict limits set forth in [Code of Civil
Procedure] section 1094.5, subdivision (e) . . . .” (Pomona
Valley Hospital Medical Center v. Superior Court (1997)
55 Cal.App.4th 93, 101 (Pomona Valley Hospital Medical
Center).)
Code of Civil Procedure section 1094.5, subdivision (e)
provides in pertinent part: “Where the court finds that there is
relevant evidence that, in the exercise of reasonable diligence,
could not have been produced or that was improperly excluded at
the hearing before respondent [agency], it may enter
judgment. . . remanding the case to be reconsidered in the light
of that evidence; or, in cases in which the court is authorized by
law to exercise its independent judgment on the evidence, the
court may admit the evidence at the hearing on the writ without
remanding the case.” (Code Civ. Proc., § 1094.5, subd. (e).)
“In the absence of a proper preliminary foundation showing
that one of the exceptions noted in [Code of Civil Procedure]
section 1094.5, subdivision (e) applies, it is error for the court to
permit the record to be augmented. [Citation.] Determination of
the question of whether one of the exceptions applies is within
the discretion of the trial court, and the exercise of that discretion
will not be disturbed unless it is manifestly abused.” (Pomona
Valley Hospital Medical Center, supra, 55 Cal.App.4th at p. 101.)

10

During the proceedings below, Yang conceded in her motion
to augment that neither the 1997 CT scan report nor the UCLA
psychological evaluation is in the administrative record. Yang
appears to contend that she did not submit her 1997 CT scan
report during the administrative proceedings because “[t]he first
time when [she] could link her head injury with the Southwest
Airlines issue was [in] March of 2018 when she was defending
herself at the administrative hearing with the nursing board.” It
further appears Yang is arguing she did not provide the ALJ with
a copy of the UCLA psychological evaluation because she “could
not anticipate that [the Board] assumed all mental exams were
done inTX.”
Yang provides no explanation as to why she could not, in
the exercise of reasonable diligence, have submitted the 1997 CT
scan report and the UCLA psychological evaluation to the ALJ
prior to the conclusion of the administrative proceedings. Rather,
she apparently contends that the Board and/or the ALJ “easily”
could have obtained these documents on their own. She does not
cite any authority showing that the Board or the ALJ was
obligated to do so.
Yang also seems to argue the trial court erred in failing to
consider a letter authored by Dr. Martin Weiss after the
conclusion of the administrative proceedings (Weiss letter). That
correspondence supposedly “explained] the connection between
[Yang's] injury” from the automobile accident and her “inability”
to harm the flight attendant in 2005. Yang admits she submitted
the Weiss letter to the trial court as an attachment to her reply
brief on the merits of the petition, rather than as an enclosure to
a motion to augment the record. In any event, Yang does not
explain why she failed to have Dr. Weiss prepare this letter at an

11

f

ZJ

earlier point in time so that she could have submitted it to the
ALJ.
By failing to advance any argument that she satisfied the
requirements of Code of Civil Procedure section 1094.5,
subdivision (e), Yang has waived her claim that the trial court
manifestly abused its discretion in declining to consider the
1997 CT scan, the UCLA psychological examination, and the
Weiss letter. (See Cahill v. San Diego Gas & Electric Co. (2011)
194 Cal.App.4th 939, 956 {Cahill) [“ ‘Appellate briefs must
provide argument and legal authority for the positions taken. . . .’
‘We are not bound to develop appellants’ arguments for them.
[Citation.] The absence of cogent legal argument or citation to
authority allows this court to treat the contention as waived.’ ”].)
Yang also suggests for the first time in her reply that she
did not submit these documents to the ALJ because she “only had
a few hours to prepare for the hearing since [the Board’s
attorney] refused to give her an extension to handle her urgent
business issue." We disregard this argument because Yang did
not timely raise it. (See Regency Outdoor Advertising, Inc. v.
Carolina Lanes, Inc. (1995) 31 Cal.App.4th 1323, 1326, 1333 [“To
the extent [appellant] raised new arguments ... in its reply brief
on appeal, we do not reach them.”].)
B.

Yang Fails to Establish that the Trial Court Was
Biased Against Her

Yang seems to complain that the trial court was biased
against her. Although Yang’s argument on this point is not
altogether clear, she apparently claims the trial court should not
have denied her July 4, 2019 ex parte motion for reconsideration
and the court otherwise erred in rejecting her claim that the
Board illegally revoked her nursing license.

12

Yang’s failure to tether her claim of bias to a statute or
constitutional provision presents difficulties on appeal as to what
standard of review we should apply to her bias claim. She
appears to be claiming that the trial court was biased because it
ruled against her several times. That would not be grounds for a
due process violation because “[t]he mere fact that the trial court
issued rulings adverse to [Yang] on several matters in this case,
even assuming one or more of those rulings were erroneous,” is
insufficient to give rise to a violation of her “due process right to
an impartial judge.” (See Brown v. American Bicycle Group, LLC
(2014) 224 Cal.App.4th 665, 673—675.) To the extent Yang is
relying on an authority other than constitutional guarantees of
due process, she has not identified any such authority, which
would constitute waiver of any such claims. (See Cahill, supra,
194 Cal.App.4th at p. 956.)
C.

The Trial Court Did Not Err in Denying Yang’s Writ
Petition

As we mentioned in the Factual and Procedural
Background, the trial court denied Yang’s writ petition because:
(1) Yang could not challenge the basis of the examination order
without first complying with the order; and (2) the Board was not
obligated to honor Yang’s request to be examined by a doctor
employed by a university. Each ground presents a question of
law that we review de novo. (See Fettgather v. Board of
Psychology (2017) 17 Cal.App.5th 1340, 1342, 1345 {Fettgather)
[“On appeal, we review the trial court’s decision [on a petition for
writ of mandate concerning an agency’s revocation of a
professional license] for substantial evidence, resolving any
conflicts in favor of the trial court’s judgment. [Citation.]

13

It

Questions of law, however, are subject to de novo review.”].)
Applying that standard, we conclude the trial court did not err.
Section 820 provides in relevant part: “Whenever it
appears that any person holding a license, certificate or
permit. . . may be unable to practice his or her profession safely
because the licentiate’s ability to practice is impaired due to
mental illness, or physical illness affecting competency, the
licensing agency may order the licentiate to be examined by one
or more physicians and surgeons or psychologists designated by
the agency. The report of the examiners shall be made available
to the licentiate and may be received as direct evidence in
proceedings conducted pursuant to Section 822.”5 (See § 820.)
In turn, section 821 provides: “The licentiate’s failure to
comply with an order issued under Section 820 shall constitute
grounds for the suspension or revocation of the licentiate’s
certificate or license.” (§ 821.) Similarly, section 822 authorizes
the agency to revoke a license if it “determines that its licentiate’s
ability to practice his or her profession safely is impaired because
the licentiate is mentally ill. . . .” (See § 822.)

5 The Fettgather court described the investigatory purpose
of this report: “This report may be received as direct evidence in
an accusation brought to revoke a license [citations], but the
function of obtaining it is investigatory. [Citations.] Further, the
Board is authorized to consider the report in closed session
[citation], and the report itself remains confidential until an
accusation is actually filed [citation]. If an accusation is not filed,
the report is kept confidential for a period of five years and
thereafter destroyed if no new proceedings are initiated within
that period of time.” {Fettgather, supra, 17 Cal.App.5th at
pp. 1345-1346.)

14

u

Relying on these statutes, the First and Third Appellate
Districts have held that a licensed health care professional may
not contest the validity of an examination order issued pursuant
to section 820 without first complying with the order. (See
Fettgather, supra, 17 Cal.App.5th at pp. 1342, 1346-1349;
Lee v. Board of Registered Nursing (2012) 209 Cal.App.4th 793,
796-798 (Lee).) These courts observed that the only fact relevant
in a license revocation proceeding under section 821 is whether
the licensee complied with the examination order. (See
Fettgather, supra, atpp. 1347-1348; Lee, supra, atpp. 797-798.)
This approach does not violate the licensee’s state and federal
due process rights because allowing him or her to challenge only
the results of a section 820 examination properly balances private
and governmental interests, including the agency’s interest in
protecting the public.6 (See Fettgather, atpp. 1347-1349; citing
Lee, at pp. 797-798; see also § 2708.1 [“Protection of the public
shall be the highest priority for the Board of Registered Nursing
in exercising its licensing, regulatory, and disciplinary functions.
Whenever the protection of the public is inconsistent with other
interests sought to be promoted, the protection of the public shall
be paramount.”].)
The trial court relied upon Fettgather and Lee in its ruling
denying Yang’s writ petition. With the exception of one vague
passage in her reply brief, Yang does not advance any argument
6 Fettgather observed that the right to practice is “not
implicated by the order for a mental examination” because such
an order does “not immediately threaten” one’s license, but is
merely “an authorized administrative inquiry[ ] falling squarely
within the police power to protect the public.” (Fettgather, supra.
17 Cal.App.5th at p. 1347.)

15

32

establishing that either case was wrongly decided. Instead, Yang
apparently claims that Lee is distinguishable because “[Yang]
already had two mental exams done and was willing to go to any
university experts of [the Board] from day 1” In making this
argument, Yang ignores the fact that Lee affirmed an order
denying a writ petition filed by a licensee who had been
evaluated by five mental health professionals, but not one
selected by the regulatory board. (See Lee, supra,
209 Cal.App.4th at p. 795.)
In any case, the decision in Lee hinged on the licensee’s
refusal to submit to a mental health examination. (See Lee,
supra, 209 Cal.App.4th at pp. 797-798.) Yang’s willingness to be
examined by a professional she believes is qualified does not
distinguish her appeal from Lee. (Cf. id. at pp. 795, 799
[affirming the trial court’s denial of the writ petition, even though
the Board rejected the licensee’s attempt to “have the
examination conducted by a psychiatrist of her choosing”].) In
sum, we agree with Lee and Fettgather and hold that Yang
cannot challenge the propriety of the examination order without
first complying with that order.
Insofar as Yang reasserts her contention that the Board
must select an examiner employed by a university, we reject that
claim. Section 820 authorizes the Board to “designate[ ]” a
“physician[,] . . . surgeon[,] or psychologist ]” to conduct the
examination. (See § 820.) Nothing in section 820 requires the
Board to utilize “university experts” for mental health
examinations. (See Red Mountain, LLC v. Fallbrook Public
Utility Dist. (2006) 143 Cal.App.4th 333, 347 [“Words of a statute
are to be given a plain and commonsense meaning. When they
are clear and unambiguous, there is no need to resort to other

16

indicia of legislative intent, such as legislative history, to
construe the statute.”]
D.

Yang’s Remaining Challenges to the Trial Court’s
Judgment Fail

Yang repeatedly complains that the Board’s attorney
wanted Yang to submit to “ ‘ANY EXAM’ by ‘ANYONE,
It
seems Yang is arguing that the Board violated section 820 by
requiring Yang to be examined by any layperson, instead of “one
or more physicians and surgeons or psychologists designated by
the agency.” (See § 820.)
This assertion is squarely belied by the record. At the
administrative hearing, the Board’s counsel simply asked Yang
whether she would submit to an exam conducted by “any doctor”
assigned by the Board. Yang then responded, “I have to look at
it.” Thus, Yang fails to establish that the Board’s counsel
violated section 820.
Further, Yang repeatedly argues the trial court “knew that
[the Board’s] analyst was lying about that they had no access to
expert data due to HIPAA [citation], and [the Board] does not
exclude university experts [citation].” Yang appears to be
referring to: (1) the trial court’s remark that the disciplinary
officer mistakenly asserted that the identity of an examiner’s
employer would be protected by HIPAA; and (2) the fact the trial
court replied “right” when Yang asserted at a hearing that the
Board does not “exclude experts from [a] university.” These
statements have no apparent relevance to the propriety of the
trial court’s judgment.
The rest of Yang’s briefing raises numerous complaints
that, to the extent we understand them, have no apparent legal
significance. As illustrative is her claim that “there is no time
}»

17

If

limit to set aside a judgement obtained by fraud.” Apart from
vaguely asserting that the Board violated sections 820 and 821,
she fails to identify any fraud underlying the trial court’s
judgment or otherwise explain the relevance of this legal
proposition to this appeal. Similarly untethered to the issues in
this appeal, Yang levels the following charge against the trial
court: “[T]he Superior Court Judge misled Appellant to go
against her common sense and deprived her constitutional rights
[sic] to protect herself and granted [the Board] unlimited rights to
abuse and harm Appellant.” She similarly fails to explain the
relevance of her claim that a medical board required her to pay
$400 to have an expert review her medical education.
Because we are under no obligation to “ ‘develop [Yang’s]
arguments’ ” for her, we deem as waived all such other
remaining untethered appellate challenges. (See Cahill, supra,
194 Cal.App.4th at p. 956.)
DISPOSITION
The judgment is affirmed. The Board is awarded its costs
on appeal.
NOT TO BE PUBLISHED.

j&uJLp
BENDIXyr
We concur:

ROTHSCHILD, P. J.

SINANIAN, J *

* Judge of the Los Angeles Superior Court, assigned by the
Chief Justice pursuant to article VI, section 6 of the California
Constitution.

18

u

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION 1

COURT OF APPEAL - SECOND DIST.

FILED
BIN YANG,
Plaintiff and Appellant,
v.
THE BOARD OF REGISTERED NURSING,
Defendant and Respondent.

Nov 10, 2020
DANIEL P. POTTER, Clerk

jzeiaya

Deputy Clerk

B298991
Los Angeles County Super. Ct. No. BS174436

THE COURT:
Appellant’s Motion to Reconsider is construed as a petition for rehearing.
The petition for rehearing is denied.

BENDIX, J. *

ROTHSCHILD, P.J.

SINANIAN, J*

* Judge of the Los Angeles Superior Court, assigned by the Chief Justice pursuant to
article VI, section 6 of the California Constitution.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION: 1
COURT OF APPEAL - SECOND DIST.

FILED

BIN YANG,
Plaintiff and Appellant,

Nov 13, 2020

v.

DANIEL P. POTTER, Clerk

THE BOARD OF REGISTERED NURSING,
Defendant and Respondent.

jzelava

Deputy Clerk

B298991
Los Angeles County Super. Ct. No. BS174436

THE COURT:
The Court has read and considered appellant's second motion to reconsider filed November
12, 2020. The motion is denied.

&rmA/t

ACTING PRESIDING
STICE
presiding/ust

cc:

Vinodhini Ramagopal
Bin Yang
File

n

1

cl
CO

- 2*
CM

Xavier Becerra
Attorney Genera! of California
Marc D. Greknraum
Supervising Deputy Attorney General

[Exempt from Filing Fee per Gov’t

Code §61031

VtNODMINI RAMAGOPAJ.
® 3
o

0! 4
co

5

o

"S
6
>
0>

o 7
CD
CC
^ 8

Deputy Attorney General
State Bar No. 240534
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
Telephone: (213) 269-6270
Fax: (213) 897-2804
E-mail: Vinodhini.Ramagopal@doj.ca.gov
Attorneysfor Respondent
Board ofRegistered Nursing

05

~

SEP 1 7 2019
Sherri R. warier. Executive Ufficer/Cler
By.

ffifiDe<4,Luna
Jenn^er

Deput;

SUPERIOR COURT OF THE STATE OF CALIFORNIA

°
Ifig
UJ S
> ^ «6i0
E 40 F*

O

FILED
Superior Court of California
County of Los Angeles

COUNTY OF LOS ANGELES

fl^ll

w ^
^ jy
%
Q

12
13

Bin Yang,

Case No. BS174436

14

Defendants - Petitioner,

15

v.

16

The Board of Register Nursing,

17

\mmmmm) judgment denying
PETITION FOR WRIT OF MANDAMUS

Date:
July 2,2019
Respondent-Complainant. Time:
1:30p.m.
Dept:
85
Judge:
Hon. James C. Chalfant
Action Filed: July 30,2018

18
19
20
21

This matter came on regularly before this court on July 2, 2019 for hearing in Department

22

85 of the County of Eos Angeles Superior Court, the Honorable James C. Chalfant, Judge

23

presiding. Petitioner, Bin Yang, appeared on her own behalf. Deputy Attorney General

24

Vinodhini Ramagopa! appeared for Xavier Becerra, Attorney General, as attorneys for

25

Respondent, California State Board of Registered Nursing [erroneously sued as “The Board of

26

Register Nursing”].

27
28

The court having reviewed the administrative record, considered all of the arguments of
counsel, both oral and written, and the court having exercised its independent judgment and
1
{•WPW9PD} JUDGMENT DENYING PliTlTION FOR WRIT OF MANDAMUS (BS 174436)

8

1

having adopted it tentative ruling on July 2, 2019, a copy of which is incorporated herein

2

and attached hereto, now issues its judgment.

3

IT IS HEREBY ORDERED that:

4

1. The petition for writ of mandate is denied;

5

2. Petitioner shall take nothing by this action; and

6

3. Respondent shall recover its costs in this action in the amount of

7

8

nw

Dated:

HON. JAMES C. C HALFANT
Judge of the Superior Court

9
10

11

APPROVAL AS TO FORM:

12
13

14
15

Bin Yang, Petitioner

Date

16
17

18
19

LA2018502045
535468S0.docx

20
21
22
23
24
25
26
27
28
2
[lULWJTOBLD] JUDGMENT DENYING PETITION FOR WRIT OF MANDAMUS (BS174436)

0

Bin Yanc v. The Board of Registered
Nursinu. ct a}.. BSl74436

Tentative decision on petition for writ of
mandate: denied

Petitioner Bin Yang ("Yang'') seeks a writ of mandate reversing the decision by
Respondent Board of Registered Nursing ("Board”) to revoke her license as a registered nurse.
The court has read and considered the moving papers, opposition,1 and reply, and renders the
following tentative decision.
A. Statement of the Case
1. Petition
Petitioner Yang, actingpm per, commenced this proceeding on July 30,2018. The Petition
for Writ of Mandate alleges in pertinent as follows.
Yang is a Chinese national. In 1989, she graduated from the Shanghai Medical University
School of Medicine and obtained a medical degree. In 1994, Yang immigrated to the United
States. On August 8, 1995. the Board issued to Yang a Registered Nurse License. Yang allowed
her license to lapse.
In 1997, Yang was rear-ended by an 18-wheeler in Amarillo, Texas and suffered a
traumatic brain injury. She could not speak for days and had to relearn English.
Over the years. Yang has attended several American medical schools. In 2005. Yang
attended a program at Baylor College of Medicine and in 2006 attended a program at USC Keck
School of Medicine.
In March 2005, Yang Hew from Houston, Texas to Lubbock. Texas. After Yang asked the
llight attendant for u blanket three times but received no response, Yang ‘-pushed" the attendant’s
right forearm for attention. The attendant claimed that Yang punched her stomach and made her
fall into a cabinet. In November 2005, a Texas district court convicted Yang of a class B
misdemeanor count of assault within the special aircraft jurisdiction of the United States.
In February 2008, Yang visited a state office located in Madison. Wisconsin to discuss her
pending application for a Wisconsin medical license. Yang followed an employee into a room
marked with a sign of "Legal Service" in the hopes of meeting counsel. A state police officer was
ultimately called to the scene upon a complaint that Yang was creating a disturbance. The officer
arrested Yang for violation of Wisconsin Administrative Code section 943.15(1), unlawful entry
into a building or construction site.
In April 2008. the Wisconsin Medical Examining Board denied Yang's application for a
medical license for several reasons, including (l) she failed an oral examination conducted in
September 2007 and (2) the board viewed her Shanghai Medical University School of Medicine
degree as equivalent to a bachelor's degree in nursing from an American university.
Yang's renewal of her license with the Board after several years of inactivity triggered an
audit of her continuing education requirements. After the Board’s continuing education unit was
unable to contact Yang, the matter was referred to Board Enforcement Analyst Barbara Lira
("Lira"). Yang's criminal matters in Texas and Wisconsin caused Lira concern about Yang’s
ability to safely practice as a registered nurse. Based on Lira’s recommendation, the Board’s
Yang asserts that the opposition brief violates the 15-page limit ofCRC 3.1113(d). Yang
is incorrect. The cover page, table of contents, and table of authorities are not included in the page
count. See id.
1

47

Executive Officer Joseph L. Morris ("Morris") issued an l
order requiring Yang to submit to a
medical examination by a professional selected bv the Board
On March 10, 2017,

this request, stating that Yang knew every doctor working at the universities
An
. administrative hearing uas scheduled for March 13, 2018. In February '’018 Yana
requested n com.m.ance of .he hearing because she had a conflict. Opposing counsel ^fused.
On March 1, -018. Moms hied a First Amended Accusation ("FAA") against Yana
requesting the revocation or suspension of Yang’s nursing license. The Accusation alleges 8
causes lor discipline: (I) failure to comply with an order to compel a mental examinationtwo
in
tiolauon ol Business and Professions Code section 820 and (2) unprofessional conduct premised

fleet

£££2% “S denia’ * Yan- a-li^

■ P—

An administrative hearing was held on March 13, 2018. Yang testified that she had
previously submitted to two mental examinations in California: one by an expert approved by a
federal court and another by a Ph D. from UCLA. Yang testified that, as part of her Chinese
medical training she had lakcn extra courses in nursing compared to most other doctors Yang
testified that she had experienced no adverse events at residency training and received excellent
letters ol recommendation from USC, Texas Tech, and UCLA.
’
On April 2. 2018, the administrative law judge ("ALJ") issued
a proposed decision
recommending revocation of Yang's nursing license.
Yang seeks a writ of mandate directing the Board to (1) vacate its order revoking Yang’s
nursing license. (2) communicate belter with other licensees, and (3) permit experts from
universities or other decent workplaces to conduct mental examinations. Yan» presents several
grounds why mandate should issue. First, the ALJ omitted consideration and discussion of crucial
evidence at the hearing: the real story of what occurred in Texas and Wisconsin, Yang's medical
education, and her letters of recommendation. Second, the ALJ was biased. According to Yang,
the ALJ turned a human rights tighter and an outstanding healthcare professional into a potential
bomber, so he could give what ’his clients’ wanted.’’ Third, the Board’s practice of refusing to
consider university medical examiners is unreasonable.
2. Course of Proceedings
At a’trial setting conference on November 1, 2018, the court Granted Yang's request to
dismiss Respondent Deputy Attorney General ("DAG") Vinodhini Ramagopal C’Ramagopan
from the case.
* r '
On December H, 2018, the court overruled the Board’s demurrer to the Petition and
granted the Board's motion to strike Ramagopal from the Petition's caption.
B. Standard of Review
CCP section. 1094.5 is the administrative mandamus provision which structures the
procedure for judicial review of adjudicatory decisions rendered by administrative agencies.
Topanaa Ass'n fora Scenic Community v. Countv of Los Angeles. (‘Topanga") (1974) 11 Cal.3d
506, 514 15.
CCP section 1094.5 does not in its face specify which cases are subject to independent
review, leaving that issue to the courts. Fukuda v. Citv of Angels. (19991 20 Cal .4th 805. 811. In
2

cases reviewing decisions which affect
independent judgment on the evidence. Bixb "•^PiVm.w™:!"'--"®1;!-, i*1,6, ^ ,c.°“" ”"cises

Under the independent judgment test, “the trial court not onlv examines the administrative
record lor errors .of law but also exercises its independent judament upon the evidence disclosed
in a limited trial de novo. Bixbv sunrct 4 C-if 1/1 ->r i aa Tiu»
^ ^ ,
.
nee disclosed

sssss-sSi
However,

fijn exercising its independent judgment, a trial court must afford a stronv

=srs

m law-or any substantial basis in fact, the courts should no. interfere with the agency?s discretion
or substitute their wisdom tor that of the agency. Bixbv. supra, 4 Cal 3d 130^ ISO^SPrI r
America v. Stale Water Resources ConlrglBoard. (1974) 42 Cal.App.3d 198, 20g5°
’
^ °~
.
.
^TQ}\S< dfC‘S,I°n ™1St be based on a Preponderance of the evidence presented at the
Tf
t' ~~rd 01 Mcdlcal Q»alllv Assurance v. Superior Court. (1977) 73 Cal.App 3d 860 862
Hie hearing officer is only required to issue findings that give enough explanation so ihn rant.
506 514 r'T U|hether' and “POn Wha‘ baSIS’10 review lhe decision. Topamui. supra 11 Cal 3d
,, . I" ,4,
lmPllc" m section 1094.5 is a requirement that tile agency set forth findings to bridee
Hie analytic gap between the raw evidence and ultimate decision or order Id at II 5
nnrt ,h An,.“?enc>'" Pr;su7ed 10 h‘-"e regularly performed its official duTies (Ev. Code 8664)
and the petitioner theretore has the burden of proof. Sjeele v. Los Armeies Conn.v n,,;i
Comjmsstan, (1958) 166 Cal.App.2d 129. 137. “ff^^ burden of proof falls-----------upon the party
attacking the administrative decision to d<
excess

C. Governing Law
I - Business and Professinns Code- Section 820 (Examination: Rennrtl
“Whenever ,1 appears that any person holding a license, certificate or permit under this
d.vis.on or under any initiative act referred to in this division may be unable to practice his or her
pro “Sion safely because the licentiate's ability to practice is impaired due to mental illness or
physical Illness affecting competency, the licensing agency may order the licentiate to be examined
• one or more physicians and surgeons or psychologists designated by the agency...." §820
2. Section 821 fFailure to Comnlv with Order: Suspension nr Revocation!
All further statutory references arc to the Business and Professions Code unless otherwise
stated.
3

, A licentiate's failure to comply with an order issued under section 8^0 shall
grounds lor the suspension or revocation of the licentiate's certificate or license §821 constitute
3. Section 822 (Disposition Alternatives: Reinstatement)
II a licensing agency determines that its licentiate's ability to practice his or her profession
safely is impaired because the licentiate is mentally ill. or physically ill affecting competency the
licensing agency may take action by any one of the following methods:
P
' ■ 'he
(a) Revoking the licentiate's certificate or license.
fb) Suspending the licentiate's right to practice.
(c) Placing the licentiate on probation.
(d) Taking such other action in relation to the licentiate as
the licensing agency in its
discretion deems proper.
The licensing agency shall not reinstate a revoked or suspended certificate
or license
il has received competent evidence of the absence or control of the condition which
causeduntil
its

4; Section 2761 (Grounds for Discipline; Evidence of C.anvictin«\
Hie board may take disciplinary action against a certified
or licensed nurse or deny an
application for a certificate or license for any of the following:
...(4) Denial of licensure, revocation, suspension, restriction, or anv other disciplinary
action against a health care professional license or certificate by another stale or territory of the
ntlLd Sl“les\by any °,hcr 20\ernment agency, or by another California health care professional
acdon'C0P>'0f,h,; deCiSi°n °r jUdSmem Sha" be COndUSiVe Cvidmcc or to!

C- Section 125.3 (Investigation and Enforcement Costs; Payment hv lAeenti*t«y
In any order issued in resolution of a disciplinary' proceeding before anv board within the
department or before the Osteopathic Medical Board, upon request of the entity bringing the
proceeding, the administrative law judge may direct a licentiate found to have committed a
violation or violations of the licensing act to pay a sum not to exceed the reasonable costs of the
investigation and enforcement of the case. §125.3(a).
D. Statement of Facts
I. Background
Yang attended the Medical Center of Fudan University in China, enrolling in September
1985. She was granted the degree of Bachelor/Doctor of Medicine in Julv 1989 AR 145 Yang
subsequently moved to the United States and the Board issued to her a license as a registered nurse
on August 8, 1995. AR 25.
In 200j, the Educational Commission for Foreign Medical Graduates certified Yang AR
142. In 2005, Yang was admitted by ihe Baylor College of Medicine to a neurology residency
program and in 2006 to a rehabilitation medicine residency program in Harvard Medical School's
Spaulding Rehabilitation Hospital. AR 141, |43.
4

(fCf

2. 2005 Incident
r . M°" Ma.rC.h 30*200J:>» ^on6 VNas ch.ar^d uith assaulting and intimidating Might attendant

toulmg f.-o 10 required her to attend anger management classes, and barred her from booking
passage on any Southwest Airlines (light for the duration of her probation AR 69
A December 14 2006 letter to Whom it May Concern from the program directory of an
anger management workshop stated that Yang had been participating in the workshop on a regular
basts, she is not an angry person, and she is generally misunderstood. AR 214.3
3. 2008 Incident

and continued to repeat herself gradually becoming more agitated. AR 82, 83 Another state
employee James Parker ("Parker"), informed Yang that Baird was not available, and that Yang
needed to inish providing the required information Baird had previously requested. Yane refused
to acknowledge this information and continued asking for Baird. AR 8?
Yang subsequently entered a secured portion of the building, cau'sing a state police officer
J. Calhoun to be called to the scene. AR 81-2. Yang was agitated and uncooperative with
Calhoun, refusing to piovidc her identification or answer questions. AR 82. Yang resisted when
Calhoun attempted to arrest her, but Calhoun successfully handcuffed her. AR 82 Yang admitted
she had entered the secured part of the building and admitted that she was on federal probation and
did not have permission to travel to Wisconsin. AR 84. After bringing her to the Public Safety
building for processing. Calhoun issued a citation to Yang and released her. AR 84-85 Yana
was not prosecuted, and her misdemeanor case was dismissed on March 27, 2008. AR 78.
b
4. Denial of Medical Licensure in Wisconsin
On April 2j. 2008, the State ot Wisconsin Medical Examining Board ("Wisconsin Board")
denied Yang s application for a license to practice medicine and surgery. AR 92-93 The
Wisconsin Board denied Yang's application for the following reasons: (I) failure of the oral
examination conducted on September 9, 2007; (2) lack of a qualifying medical degree as Yang's
medical degree in China was the equivalent of a nursing degree; (3) adverse action during Yang's
medical residency at Texas lech University, including poor clinical performance, behavioral
problems and complaints from staff and physicians, and failure to complete the residency program;
and (4) Yang s 200o conviction for assault in 1 exas, a petty theft conviction in Minnesota in 1995
and a violation of law in creating a disturbance resulting in her 2008 arrest in Wisconsin. AR 923 According to Yang, a psychology report in 2005 showed that she had no mental or
personality disorder in the Texas airline incident. AR 205.
In August 2006. a medical doctor met with Yang to evaluate whether she had a "’health
related problem" for purposes of her entry into the rehabilitation medicine residency program at
Spaulding Rehabilitation Hospital. AR 163.
5

n

J.

^r^ssasssssss
uststsssst
ix,
- wai '
was

5. Mental Exam Order
On March 10, 2017, the Board, through its Executive Officer Joseph Morris ("Morris"}
issued to Yang an Order Compelling Mental and/or Physical Examination ("Order’-) based on a
conclusion that Yang s ability to salely practice as a registered nurse may be impaired due to
mental and/or physical illness. AR 39-47. The Order based ihis conclusion on Yang’s 2005
comiu.on lor assault on the Southwest Airlines flight attendant and Yang’s 2008 violation of her
probation and W isconsin law, resulting in her arrest AR 4]
section gap ^ direCtCdh Yan,V° SUbmit ‘° 2 menlal an“'or Ph>sical «»«"!"«,ion pursuant to
section 820 to determine her ability to salely practice as a registered nurse. AR 42 The Order
slated he examination would be conducted by a physician specializing in psychia.rv or a
m Y, “8iu SeTedby lhe Board and WOuld be conducled » n time that is mu.iLly convenient
-f t-t" ected exuminer within a 0 days of service of the Order. AR42. The Order further
stated that failure to comply w ith the Order would constitute grounds for disciplinary action against
20.lt 7 C AR 36UrSUam t0 sect,0n 821 • AR 43- The B°ard mailed the Order to Yang on March
6. Accusation
On March 1, 2018. the Board filed its First Amended Accusatiion
(*T‘AA~) against Yang
for her failure to comply with the Order. AR 12-15,
subject
lb
discipline
because
she
did
not
comply
.vithd.e
Ordm
tosubmb
'tTa’mentil/p’hjsic'a'i
was

£sr,v:5y30s-„,'"““ “«« — »« “

Hie second cause lor discipline was the Wisconsin Medical Board's denial of Yant-’s
appl.cat.on ior a medical license. AR 14. Pursuant to section 2761(a)(4), Yang was subject to
discipline based on this denial. AR 14-15,
6
J
°
On June 8. 2017 Yang requested a hearing. AR 8. On August 21,2017, the Board set the
hearing for March 13, 2018. AR 4.
7. The Hearing
The hearing occurred on March 13, 2018. ALJ Eric Sawyer conducted the hearing AR
234-35. Relevant testimony from the hearing is as follows.
1. Yang
Yang was accepted at Texas Tech but did not care for it and was accepted at Baylor in
neurology. AR 318. Because Texas wanted a "newspaper'' to evaluate her medical education she
withdrew her application in Texas and accepted an offer of a one-year residency in California ’ AR
318. She had no disciplinary matters and, in fact, had letters of recommendation from her
residency. A R 326-28.
Yang is not currently working as a nurse. Since 2006 she has been running her own
.
business. AR 362-64. Yang has not used her registered nurse license since 2008 and she docs not
6

u

need the license. AR 370.
Yanu tried to continue the hearing, but the deputy attorney general opposed. AR 270.
/ ang never really objected to submitting to a mental evaluation and was willin'* to be evaluated
by an examiner who worked for a university. AR 315. Lira did not want a university doctor to
examine >ang because Yang "[knew] all the doctors.1' AR 315, 335. Yang became very anxious
when Lira refused to allow a university doctor to examine her. AR 315. Yang is distrustful of the
professionals approved by the Board, feeling that they are apt to act in favor of the government for
the purposes ol securing further business and referrals. AR 333-35. 387-88. University doctors
are less subject to such influence. AR 334. Yang felt she was being set up. AR312.355
Regarding the 2005 incident with the Southwest Airlines flight attendant. Yang maintained
that she only pushed the flight attendant to get her attention. AR 371-72. The story was
exaggerated, and Yang did not intend to harm her. AR 258. She apologized, but the attendant
msisied that Yang intended to harm her. AR 258. Yet, Yang's auto accident impaired her physical
ability, she cannot play tennis, and she could not raise her luggage to the overhead. AR 258 Yang
was forced to admit that she knowingly and intentionally assaulted the flight attendant by striking
her m the stomach and forearm, causing her to fall against the bulkhead and strike her elbow AR
374-75.
Yang has had two mental examinations in California. AR 346. In 2008, she asked for
early termination ol her probation and had her own expert examine her and then one of'‘their”
experts. AR 346. Both were in California. AR 346.
Regarding (he 2008 incident in Wisconsin, Yang travelled to Wisconsin without
permission from her probation officer because it would take two weeks to get permission and the
Wisconsin Hoard only had certain days a year. AR 386. She did not know the area she entered
was secured when she entered it. AR 385. The incident was a wrongful arrest manipulated with
criminal intention. AR 385.
Regarding the April Fool petty theft in Minnesota, she learned her lesson and and the
conviction has been expunged. AR329. Set? AR 160-61.
There have been no clinical complaints or police reports against Yang since 2008. AR 292.
Yang was willing to let her license lapse without further issue, but the Board insisted on
obtaining a court order. AR 357,389. Yang refused to offer information as to her financial ability
to pay the costs for the Board's investigation. AR 365-69.
2. Lira
Barbara Lira ("Lira") testified on behalf of the Board. Lira was the discipline analyst for
Yang s case. AR 272-73. Yang had not been practicing as a nurse for approximately eight years
and let her license lapse. AR 303.
Yang came to the Board's attention when she filed a license renewal application. AR 303.
The Board's Continuing Education Unit ("CEU") conducts random audits of nurses requesting
certificates demonstrating that they are current with continuing education requirements. AR 278.
The CEU conducted an audit of Yang's license. AR 278. The CEU The CEU sent two letters to
Yang requesting her certificates but did not receive a response. AR 278. The CEU then reviewed
Yang's llle and noted her 2005 conviction for assault and her 2008 arrest in Wisconsin. AR 279.
The CEU referred the file to Lira for review. AR 280-81. Lira referred Yang's file to the Attorney
General's office, which subsequently served the Order on Yang. AR 281.
The Order required Yang to contact Lira about the examination within 30 days. AR 282.
Yang called Lira on March 24. 2017. AR 282.285. The two spoke for over 30 minutes and Yang
7

was verv excitable, causing Lira to feel the conversation was "out of the ordinary." AR 28-> Yanrepeatedly went oil on tangents and was uncooperative in scheduling the medical exam, AR 283°
Yang stated she was only willing to submit to an examination if the examiner worked for
a university. AR 287. Lira explained that the Board selects examiners from a list of approved
professionals and Yang could not choose her own examiner. AR 287. The Board approved list is
a list of professionals who apply and are vetted by the Board: the Board does not exclude universitv
professionals from the list. AR 287-88, 290. The Board cannot go outside its contracted
prolessionals, and Lira has no way ol knowing if a listed doctor works for a university AR 298
Lira eventually cut off the conversation and informed Yang she would extend the time limit for
scheduling the medical examination by a week to give Yang more time to think about it AR 283
On April 27. 2017, Yang again phoned Lira. AR 284. Yang said thal this was not right'
and Lira was trying to say she is mentally ill. AR 284. Lira responded that she was only trying to
make an exam appointment for Yang if she wanted it. Yang responded no, she was not callinu to
make an appointment. AR 284.
°
The Board does not exclude doctors from universities, AR 287. The applicant would state
Where he or she works as part of the r etting process. AR 304. Lira contended that the doctor’s
information is “highly protected by HIPPA." AR 299.
The mental examinations of Yang conducted in 2006 and 2008 were not relevant because
the\ were not performed by a Board approved professional and were outdated. AR 294. Lira also
found the tact that Yang has had two or three mental evaluations to be a little alarming. AR 294
8. The ALJ’s Proposed Decision
The ALJ issued his proposed decision on April 2, 2018. AR 178-87. The ALJ defined the
primary issue as whether the Board established cause for discipline by clear and
convincing
evidence to a reasonable certainty. AR 184. The ALJ found as follows.
Yang's license was issued in 1995. AR 179. She allowed her license to lapse for an
undetermined number of years before renewing it. AR 1 79. The license would expire on January
31.2019 unless renewed or disciplined. AR 179. Yang's preference is to let her license expire
and she will not seek to renew it. AR 1 83.
With respect to the first cause for discipline, the statutes and related regulations do not
define the threshold for issuance of a mental or physical examination order under section 820, but
courts have used ;,a showing of good cause" or "reasonable cause" as a threshold. AR 184. At a
minimum .an agency may issue a section 820 order whenever it appears a licensee may be unable
to practice her profession due to impairment from mental illness or physical illness affecting
competency. AR 185.
Case law establishes that Yang had no right to challenge the basis for the Order before
complying with it. Fettgather v. Board of Psychology. ("Fcttgaiher") f20171 17 Cal.App.5,h 1340.
1Lee v. BoardofRegistered Nursing. ("Lee") (2012) 209 Cal.App.4,h 793, 798. Yang would*
only have standing to challenge the examiner selected or the examination process if she had
complied with the Order. Her excuses for noncompliance with the Order and her arguments about
the merits of the Order are therefore irrelevant. AR 185.
The Board established with clear and convincing evidence that Yang is subject to
disciplinary action under section 821 because she failed to comply with the Order. AR 185. The
Board had legitimate concern over Yang's ability to safely practice nursing due to her conviction
in 2005 and her arrest in 2008. AR ] 85. The Board demonstrated the minimum threshold for the
issuance of a section 820 order, as well as the thresholds of good or reasonable cause. AR 185.

8

Yang was subject to a lawful order that the Board had the authority and discretion to issue and
willfully refused 10 comply with it. AR 185.
With respect to the second cause for discipline, the Board established by clear and
convincing evidence that Yang is subject to disciplinary action for unprofessional conduct under
section 3761(a)(4) because her application for a medical license was denied by the Wisconsin
Medical Examining Board in 2008. AR 186. Yang had notice of and an opportunity to challenge
the denial but failed to prosecute her appeal, which was subsequently dismissed. Yang’s efforts
to denigrate the merits of Wisconsin's actions are therefore untimely and not relevant. AR 186.
The Wisconsin Board’s denial of Yang's application does not require serious discipline, as
it occurred ten years ago and the Board presumably knew of the denial and took no action on it.
AR 186. Yang's failure to comply with the Order is subject to a greater level of discipline. The
Board is rightfully concerned about Yang’s behavior underlying her criminal cases in 2005 and
2008 and Yang has done nothing recently to assuage the Board's concerns about her ability to
safely practice. AR 186. Yang has made it clear she docs not respect or trust the Board,
demonstrating a safety concern. As Yang failed to dispel the Board's concerns about her ability
to safely practice, the interests of public protection warrant revocation of her license. AR 186.
The ALJ recommended that Yang's nursing license be revoked and that she pay for the
Board's costs of investigation and prosecution in the amount of $4,752.50 ifand when her license
is reinstated. AR 187. Yang did not demonstrate a reason to reduce the costs or an inability to
pay them. AR 186. Due to the unique nature of the case, Yang should only pay the costs ifand
when her license is reinstated. AR186.
On June 5, 2018. the Board issued its Decision and Order adopted the Proposed Decision
effective July 5,2018. AR 189.
9. Reconsideration
On May 12 and June 8,2018, Yang sent emails to the Board, which included an attachment
listing her volunteer services and the December 14, 2006 letter from the program directory of an
anger management workshop stating that Yang had been participating in the workshop on a regular
basis. AR 210-12, 2014. Yang stated that she already had been evaluated by two California
experts, one at UCLA, and both the California Medical Board and Texas federal court accepted
his report. AR 211. The emails included an explanation that Yang had a serious auto accident in
1997 which impaired her physical strength. AR 210. She had no ability to punch that airline
attendant's stomach and make her Tall because of this injury. AR 211. She only pled guilty
because she had no witness and her attorney advised her to do so. AR 211.
The Board treated these emails as a request for reconsideration of its decision. AR 21014. On June 29, 2018, the Board issued its Order Denying Reconsideration, slating that Yang did
not establish good cause to grant reconsideration. AR 215-17.
E. Analysis
Petitioner Yang challenges the merits of the Board’s Order, arguing that the Board did not
properly carry out section 820 and the decision to revoke her nursing license was thereby an abuse
of discretion.-1
4 Yang also requests punitive damages in the amount of $1,200,000. As the Board correctly
argues, punitive damages are not available in administrative mandamus proceedings. Yang’s
remedies are limited to a judgment to set aside the agency’s decision or remanding the matter for
9

47

I. Did the Board Pronerlv Issue the Order?
^ an^ assorts that the Board did not "’carry Code 820 properly" when it issued the Order
arguing that she uas willing to submit to a mental examination bv a university examiner and that
the Board improperly refused to comply with her request. Yang testified that'she was concerned
that the Board was setting her up and she wanted an independent university doctor to examine her
Hud Lira selected an expert from a university, no administrative hearing or writ petition would
have been necessary. Pet. Op. Br. at 12; Reply at 2-3.
Section 820 permits an agency to order an examination of a licensee whenever it appears
that the licensee may be unable to practice their profession due to impairment from mental illness
or physical illness. The agency designates an examiner to perform the examination. Bus & Prof.
Code §820.
The Board's section 820 order to Yang was based on its concern about Yang's ability to
saiely practice nursing because of her 2005 Texas federal conviction and her Wisconsin arrest in
2008. AR 41-2. As the opposition notes, the ALJ found that the Board had ample reason to have
concern over Yang's ability to safely practice as a nurse and met the minimum threshold, as well
as the thresholds of good cause or reasonable cause. Opp. at 11.
Yang challenges both of the incidents forming the basis for the Order. Yang asserts that
she only pushed the Right attendant in the 2005 incident, contrary to the attendants claim that
Yang punched her in the stomach, making the attendant fall into a cabinet. Pet. Op. Br. at 3. Yang
argues that she did not have the physical strength to do as she was accused and that she only pled
guilty based on her attorney's advice and her belief that she had no witnesses and the jurisdiction
was unfair. Pet. Op. Br. at 3. 7; Reply at l. Yang also challenges her 2008 Wisconsin arrest
claiming that she did not knowingly enter the secured area and that she left as soon as she was
asked. Pet. Op. Br. at 4-5; Reply at 2. Yang also notes that the misdemeanor citation was
dismissed and should not be used against her. Pet. Op. Br. at 13.
As the AIJ explained and yet Yang fails to understand, her arguments about the merits of
the incidents forming the basis for the Order are irrelevant. Case law establishes that a licensee
has no due process right to challenge the reasons for a section 820 order before submitting to the
examination; the licensee may not prevent the examination and challenge its merits. Fetteather.
supra, 17 Cal.App.5th at 1348; Lee, supra, 209 Cal.App.4th at 798. The reason for this rule is that
the governmental interest in public safety is compelling and the ability to investigate whether a
licensee is mentally ill is paramount. Fettiiather.Aw/prn. I7Cal.App.5lbat 1349. The government’s
interest would be severely impacted if a licensee could delay an investigation which the licensee
believes to be unwarranted and requiring compliance with a section 820 order protects the licensee
as well. Id. at 1349. Only after submitting to the exam may a licensee challenge its results or basis
in an administrative hearing and in court, and license revocation may be based on failure to obey
a mental examination order. Lee supra, 209 Cal.App.4,h at 709.
Lee involved a situation similar to Yang's position in which the petitioner tried to have a
psychiatrist of her own choosing conduct the exam, and then later refused to submit to any exam.
209 Cal.App.4th at 795. The Lee court held that the only relevant fact is whether the petitioner
complied with the Board's order for a mental exam. Id. at 798.
Yang does not dispute that she did not comply with the Order. All of Yang’s arguments
about the underlying Texas and Wisconsin incidents are irrelevant to the question whether the
the agency's reconsideration. See CCP §1094.5(1). Opp. at 18,
10
&

Board properly issued the Order.
Yang additionally asserts the Board should have scheduled a university doctor to perform
ihc menial examination. Pel. Op. Br. at 12; Reply at 2-3. This argument is dependent on the
language
ot section 820. Section 820 expressly states that the licensing agency may order the
.
licentiate to be examined by one or more physicians and surgeons or psychologists designated bv
the agency. Pursuant to this language, the examiner is selected by the Board and Yang cannot set
limits on which examiner is chosen by insisting she be affiliated with a university. Lira explained
at the hearing that the examiners are taken from a list of Board-approved professionals. To be on
the list, a professional must submit an application which is then vetted. The Board enters into a
contract with the professional to render mental examination services. The Board can only choose
a professional from the approved list, and Lira had no way of knowing which professionals
were
university-affiliated. AR 298.
Yang s argument about the bias of a non-university professional is not well taken First
there is no reason to believe that a university professional would have any different bias than a
private practitioner. Both are vetted, enter into a contract, and arc paid by the Board. To the extent
that there is a bias in favor of the Board based on the prospect of future business, both professionals
would have it.
More important, Yang has no legal right to interfere with the statutorily required system.
Section 820 permits the Board to choose the professional from its approved list. Yang was required
to submit to that examination. Should Yang disagree with the outcome and believe that the Board's
professional was biased, her option was to challenge the outcome at a hearing where she could
have demonstrated the bias and presented her own expert's mental examination report. But she
cannot prevent the Board from ordering an exam by a professional chosen bv the Board from its
approved list.
The Board properly complied with section 820 in issuing the Order.
2. The Wisconsin Board Decision
Yang appears to challenge the ALJ's conclusion that the Wisconsin Board's denial of her
application formed a basis for discipline under section 2761(a)(4). Pet. Op. Br. at 4, 6, 8. Yang
asserts that the Wisconsin Board ‘'made up stories" and did not have cause to deny her application.
Pet. Op. Br. at 4. 6, 8. Yang also argues that the Board disregarded her evidence that the Wisconsin
Board's denial of her application was improper and only cared about Yang having "a certificated
copy" of the decision. Pet. Op. Br. at 8.
The Board may take disciplinary action against a licensee for any disciplinary action
against a health care professional license or certificate by another state. A certified copy of the
decision or judgment shall be conclusive evidence of that action. §2761 (a)(4). The Wisconsin
Board denied Yang’s application for a license in 2008. AR 92-3. Yang requested a hearing
challenging the denial but failed to appear at the pre-hearing conference, resulting in her appeal
being dismissed. AR95-9.
Section 2761(a)(4) states that disciplinary actions in other states, including denial of
licensure, arc grounds for disciplinary action by the Board and a certified copy of the relevant
decision is conclusive evidence of such an action. Yang's application for a license was denied by
the Wisconsin Board, and the decision regarding that denial is certified and in the record. AR 95.
The denial is therefore a valid basis for the Board to take disciplinary action against Yang pursuant
to section 2761(a)(4).
Despite this fact, the ALJ did not rely on denial of a medical license in Wisconsin as
II

H

requiring “serious discipline" for Yang's nursing license. AR ! 86.
3. The Accusations Against PAG Ramagonal and the ALJ
Yang makes various arguments unrelated to the merits of the Order, including assertions
that DAG Ramagopal committed misconduct by (a) objecting to almost everything submitted by
Yang, (b) misstating the names of the universities to which Yang was willing to go for an exam,
(c) forcing Yang to agree with forced Yang to admit that she agreed to the factual basis for her
federal conviction, (d) forcing Yang submit to a mental exam by any examiner to set her up, and
(d) saying that she did not care if the Wisconsin Medical Board made up stories because she had
a certificated copy of dental. Pet. Op. Br. at 12; Reply at 3.
Yang also contends that the ALJ {1) did not care what happened in Texas and Wisconsin,
omitted unknown workplace an patient resources, (2) deleted Yang's approved medical education
and excellent letters of recommendation, (3) turned two mental exams into multiple exams, (4)
ignored the fact that Yang changed her medical specialties and turned that into adverse residency
results, (5) treated the Minnesota lack of records as proof of no expungement order, (6) disregarded
the August 2006 evaluation of Yang lor a '’health related problem" and treated the letter’s
conditional recommendation of a six-month follow-up as evidence of menial instability, and (7)
failed to obtain the medical records from the federal court in Texas. Pet. Op. Br. at 8-9; Reply at
4. Yang concludes that the ALJ altered facts to serve his clients to create evidence of mental
instability and downgrade Yang's solid medical education, and turn a human rights fighter and
outstanding healthcare professional into a potential bomber. Pet. Op. Br. at 13,
None of the accusations against DAG Ramagopal constitute misconduct, and the
accusations against the ALJ arc unsupported by the Record. Opp. at 15-18. Moreover, these
arguments have no bearing on the issues of the validity of the Order and whether Yang’s noncompliance is a basis discipline. 5
F. Conclusion
The Petition is denied. The Board is ordered to prepare a proposed judgment, serve it on
Yang for approval as to form, wait ten days after service for any objections, meet and confer if
there are objections, and then submit the proposed judgment along with a declaration stating the
existence/non-cxistence of any unresolved objections. An OSC re: judgment is set for August 8,
2019 at 9:30 a.m.

s Yang continues to assert that DAG Ramagopal modified the Administrative Record to
herdetrimem and failed to property deliver it. Pet. Op. Br. at 10-11. The court previously resolved
all issues concerning the Record, the pertinent May 12 and June 8 emails are in the Record (AR
192-94. 197-99. 202-4. 206-8. 210-12), and there is no reason to address this issue further.

12
^2

Court of Appeal, Second Appellate District, Division One - No. B298991
S265853

IN THE SUPREME COURT OF CALIFORNIA
SUPREME COURT

En Banc

JAN 1 a 2021
BIN YANG, Plaintiff and Appellant,

Jorge Navarrete Clerk

v.
- Deputy,

BOARD OF REGISTERED NURSING, Defendant and Respondent.
The petition for review is denied.

CANTIL-SAKAUYE
ChiefJustice

r

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DANIEL P. POTTER, CLERK
DIVISION 1

Los Angeles County Superior Court

BIN YANG,
Plaintiff and Appellant,
v.

THE BOARD OF REGISTERED NURSING,
Defendant and Respondent.
B298991
Los Angeles County Super. Ct. No. BS174436

•kirk

REMITTITUR ***

I, Daniel P. Potter, Clerk of the Court of Appeal of the State of California, for the
Second Appellate District, do hereby certify that the attached is a true and correct copy of
the original order, opinion or decision entered in the above-entitled cause on October 27,
2020 and that this order, opinion or decision has now become final.
The Board is awarded its costs on appeal.

Witness my hand and the seal of the Court
affixed at my office this

Jan 14, 2021
DANIEL P. POTTER, CLERK

by:/ J. Lozano, ”
Deputy Clerk
cc:

All Counsel (w/out attachment)
File

